Report No. D-2011-053                       March 24, 2011





     American Recovery and Reinvestment Act Projects-

       Air Force Research Laboratory Projects Need 

                      Improvement 

Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:


                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ADVENT                        Adaptive Versatile Engine Technology
AFRL                          Air Force Research Laboratory
DPAP                          Defense Procurement and Policy
ESSP                          Efficient Small Scale and Power
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunity
FPDS                          Federal Procurement Data System
HEETE                         Highly Efficient Embedded Turbine Engine
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
NTEET                         Near Term Energy-Efficient Technologies Program
OMB                           Office of Management and Budget
RDT&E                         Research, Development, Test, and Evaluation
RFP                           Request for Proposal
UAV                           Unmanned Aerial Vehicle
USACE                         U. S. Army Corps of Engineers
WRAFB                         Warner Robins Air Force Base
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                           March 24,2011


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (ACQUISITION)
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR DEFENSE RESEARCH AND ENGINEERING


SUBJECT: American Recovery and Reinvestment Act Projects-Air Force Research
         Laboratory Projects Need Improvement (Report No. D-2011-053)

We are providing this report for information and use. The Air Force properly justified
and adequately planned and funded 9 of 10 Air Force Near Term Energy-Efficient
Technologies projects. However, the Air Force Research Laboratory could have
improved transparency in the process of executing Public Law 111-5, "American
Recovery and Reinvestment Act of2009," February 17, 2009, contract actions. We
considered management comments on a draft of this report when preparing the final
report.

We received comments from the Executive Director of Air Force Research Laboratory
that conformed to the requirements of DoD Directive 7650.3. The comments were
responsive; therefore, no further comments are required. As a result of management
comments, we deleted draft report Recommendation 1.a and revised and renumbered
draft report Recommendation 1.b as Recommendation 1.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
THIS PAGE INTENTIONALLY LEFT BLANK 

Report No. D-2011-053 (Project No. D2009-D000AB-0170.003) 	                         March 24, 2011


               Results in Brief: American Recovery and
               Reinvestment Act Projects—Air Force
               Research Laboratory Projects Need
               Improvement
                                                        Specifically, AFRL should have:
What We Did                                              posted online notices on 5 contract
We reviewed the planning, funding, and initial             modifications for 2 NTEET projects,
execution of 10 Air Force Research Laboratory            provided clarity in the presolicitation notice
(AFRL) Near Term Energy-Efficient                          for 1 NTEET project, and
Technologies (NTEET) program research and               	 informed the public of its intent to use pre-
development projects, valued at $38.9 million,             viously competed contracts to perform all
out of all Air Force NTEET research and                    AFRL 10 NTEET projects.
development projects, valued at $72.9 million.
Specifically, we determined whether contracting         The AFRL lack of transparency occurred
efforts complied with Public Law 111-5,                 because of the contracting officers’ inconsistent
“American Recovery and Reinvestment Act of              contract implementation and oversight and the
2009,” February 17, 2009, (Recovery Act)                Air Force’s lack of specific Recovery Act
requirements, Office of Management and                  implementing procedures. As a result, the Air
Budget guidance, the Federal Acquisition                Force did not achieve the Recovery Act
Regulation, and DoD implementing guidance               objective of transparency in implementing
including the DoD NTEET Program Plan of                 AFRL NTEET actions.
May 15, 2009.
                                                        What We Recommend
What We Found                                           We recommend that the AFRL and the
The Air Force properly justified and adequately         Air Force Materiel Command publicly disclose
planned and funded 9 of 10 NTEET projects.              details of the use of existing cost-reimbursement
In addition, AFRL used modifications and task           contracts previously competed to perform
orders to previously awarded competitive cost-          Recovery Act NTEET projects.
reimbursement contracts and cooperative
agreements to award contract actions for the            Management Comments and
projects. As of March 31, 2010, AFRL awarded            Our Response
24 contract actions, valued at $34.8 million, and       Responding for the Commander, the Executive
2 cooperative agreement actions, valued at              Director, AFRL, agreed with the intent of the
$972,000. However, the Air Force could have             recommendation. The Executive Director’s
improved NTEET project contracting and                  comments are responsive. As a result of
transparency.                                           management comments and additional audit
                                                        work, we deleted draft report
                                                        Recommendation 1.a and revised and
                                                        renumbered draft Recommendation 1.b as
                                                        Recommendation 1. No further comments are
                                                        required.




                                                    i
Report No. D-2011-053 (Project No. D2009-D000AB-0170.003)               March 24, 2011


Recommendations Table
         Management                    Recommendations      No Additional Comments
                                      Requiring Comment           Required
Commander,                                                             1
Air Force Research Laboratory




                                              ii
Table of Contents
Introduction	                                                                    1      


      Objectives                                                                 1      

      Recovery Act Background                                                    1

      Recovery Act Requirements                                                  1

      Recovery Act Contracting Requirements                                      2

      OMB Recovery Act Guidance                                                  3

      DoD Recovery Act Program Plans                                             3

      Recovery Act Cooperative Agreements                                        5

      Other Matters of Interest                                                  5

      Review of Internal Controls                                                5


Finding. Air Force Near Term Energy-Efficient Technologies Program

Implementation Was Not Transparent                                                6


      AFRL NTEET Program Properly Planned Projects                              6

      Air Force Promptly Distributed NTEET Program Funding                      7

      AFRL NTEET Contracting Process                                            7

      Presolicitation Notices for AFRL NTEET Contract Modifications Were Not 

         Published                                                              9

      Descriptions in Presolicitation Notices Were Unclear                      9

      AFRL Use of Existing Contracts Lacked Transparency                        9

      Tracking and Reporting                                                   10 

      Summary                                                                  10       

      Management Comments on the Report and Our Response                       11 

      Recommendation, Management Comments, and Our Response                    11 


Appendices
     A. 	Scope and Methodology                                                   12 

            Prior Coverage                                                       13 

     B. Recovery Act Criteria and Guidance 	                                     14 

     C. 	DoD Near Term Energy-Efficient Technologies Program Funding and 

            Functional Areas                                                     16 

     D. 	Execution of the Near Term Energy-Efficient Technologies Aft Body Drag 

            Reduction Project Was Delayed                                        18 

     E. 	Description and Status of AFRL Near Term Energy-Efficient 

            Technologies Projects                                                20 

     F. Management Comments on the Report and Our Response 	                     24 

     G. Air Force Laboratory Contract and Cooperative Agreement Actions          27 


Management Comments

      Air Force Research Laboratory 	                                            30 



                                        iii
THIS PAGE INTENTIONALLY LEFT BLANK 

Introduction
Objectives
Our overall objective was to determine whether DoD and its Components planned and
implemented Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
February 17, 2009 (Recovery Act), by meeting the requirements in the Recovery Act,
Office of Management and Budget (OMB) Memorandum M-09-10, “Initial
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
February 18, 2009, (Recovery Act) and subsequent related guidance. For this audit, we
reviewed the planning, funding, and initial execution (contracting) of 10 Near Term
Energy-Efficient Technologies (NTEET) program research and development projects to
determine whether the Air Force contracting efforts complied with Recovery Act
requirements, OMB guidance, Federal Acquisition Regulation (FAR), and DoD
implementing guidance. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.
      The purposes of this Act include the following:
          (1) To preserve and create jobs and promote economic recovery.
          (2) 	 To assist those most impacted by the recession.
          (3) 	 To provide investments needed to increase economic efficiency by
                spurring technological advances in science and health.
          (4) 	 To invest in transportation, environmental protection, and other
                infrastructure that will provide long-term economic benefits.
          (5) 	 To stabilize State and local government budgets, in order to minimize
                and avoid reductions in essential services and counterproductive state
                and local tax increases.

                  .        .       .       .        .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this act so as to achieve the purposes
       specified…including commencing expenditures and activities as quickly as
       possible consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) initial execution, and (4) tracking and reporting. The Recovery Act
requires that projects be properly planned to ensure the appropriate use of funds. Review
of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Review of the initial execution phase is to ensure that contracts
awarded with Recovery Act funds were transparent, competed, and contained specific
FAR clauses; that Recovery Act funds were used for authorized purposes; and that
instances of fraud, waste, error, and abuse were mitigated. Review of the execution

                                                  1

phase also ensures that program goals were achieved, including specific program
outcomes and improved results on broader economic indicators; that projects funded
avoided unnecessary delays and cost overruns; and that contractors or recipients of funds
reported results. Review of the tracking and reporting phase ensures that the recipients’
use of funds was transparent to the public and that benefits of the funds were clearly,
accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide rationale for awarding of any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on the FBO Web site. In addition, to provide transparency,
FBO has a separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

                                           2

OMB Memorandum M-09-15, “Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009,” April 3, 2009, directed contracting officers to
provide a description on the FBO Web site of the supplies and services that is clear and
unambiguous to support public transparency. The memorandum required specific
posting requirements for modifications as well as orders under task and delivery order
contracts. On April 21, 2009, the Office of Defense Procurement and Acquisition Policy
(DPAP) issued updated Recovery Act contracting instructions requiring contracting
offices to post presolicitation and award notices for modifications or orders under
existing contracts. On March 19, 2010, DPAP further revised the guidance to rescind the
presolicitation requirement as it related to contract modifications to existing contracts.

FAR Subpart 5.704, “Publicizing-preaward,” directed users to FAR subpart 5.201, which
stated that, for acquisitions of supplies and services, the contracting officer must post a
notice to the Government Point of Entry system for modifications to an existing contract.
However, this section of the FAR was amended in July 2010 to exclude modifications
from the presolicitation FBO posting requirement.

FAR Section 6.1, “Full and Open Competition,” describes the steps necessary to keep
competition full and open to all sources. Full and open competition includes full and
open competition after exclusion of sources, which allows an agency to exclude a
particular source(s) when doing so would ultimately be more beneficial to the agency
than if competition was full and open. FAR 6.302, “Circumstances Permitting Other
Than Full and Open Competition,” allows for sole-source when “only one responsible
source and no other supplies or services will satisfy agency requirements.”

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DoD and the Components issue their implementation
guidance. OMB has issued 11 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization; Homeowners Assistance; Military Construction; Near
Term Energy-Efficient Technologies, and U.S. Army Corps of Engineers (USACE) Civil
Works.




                                           3

The values of the six programs are shown in Table 1.
    Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs

                                Program                                          Amount
                                                                               (in millions)
     Energy Conservation Investment                                                  $120
     Facilities Sustainment, Restoration, and Modernization                         4,260*
     Homeowners Assistance                                                            555
     Military Construction                                                          2,185
     Near Term Energy-Efficient Technologies                                          300
     U.S. Army Corps of Engineers Civil Works                                       4,600
        Total                                                                     $12,020*
*On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds
from DoD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DoD
Recovery Act FSRM amounts to approximately $4 billion and total DoD Agency-wide and Program-
Specific Recovery Act program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 32 DoD and USACE line
items of appropriations.

Air Force NTEET Program
Under the Recovery Act, Congress appropriated $300 million for DoD Research,
Development, Test, and Evaluation (RDT&E) funds in four appropriation accounts of
$75 million each for Army, Navy, Air Force, and Defense-Wide NTEET Recovery Act
projects. Each Military Department and Defense agency submitted RDT&E candidate
projects for review in five broad areas:
       fuel optimization for mobility platforms,
       facility energy initiatives,
       operational efficiencies and commercial practices,
       domestic energy supply and distribution, and
       tactical power systems and generators.

See Appendix C for a description of each of these five program funding and functional
areas.

Research and Development Contracting
The primary purpose of contracted research and development programs is to advance
scientific and technical knowledge and apply that knowledge to achieve agency and
national goals. Unlike contracts for other services and supplies, most research and
development contracts contain objectives for which the work or method cannot be
precisely described in advance. Although the Government prefers to use fixed-price
contracts, they do not usually apply in research and development contracting, where
specifications and cost estimates are usually not precise enough to permit a fixed-price
preference. Therefore, the DoD NTEET Program Plan, May 15, 2009, forecasted a


                                                  4

smaller percentage of fixed-price contracts for anticipated Recovery Act NTEET program
projects than for other Recovery Act project categories.

Recovery Act Cooperative Agreements
The Recovery Act establishes transparency and recipient accountability requirements.
OMB Memorandum M-09-15, “Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009,” April 3, 2009, provides specific guidance over
grants and cooperative agreements in section 5. Section 5(3), “Existing Grants and
Cooperative Agreements,” states that agencies may consider obligating funds provided
under the Recovery Act on an existing grant, including, but not limited to, a continuation
or renewal grant. If so, as required by the Recovery Act, funds must be tracked and
accounted separately. Requirements include, but are not limited to, report development
and submission, accurate and timely data reporting, and special posting requirements to
agency Web sites and http://www.Recovery.gov. Section 5(9) provides terms and
conditions beyond standard practice that must be included in competitive and formula
grant agreements under the Recovery Act. Section 1512 of the Recovery Act requires
recipients to report on the use of Recovery Act funds. OMB notes that quarterly
reporting of nationwide data at http://www.FederalReporting.gov would reflect the level
of transparency and accountability required by the Recovery Act. The first of these
reports were due on October 10, 2009. As of March 31, 2010, AFRL issued two
cooperative agreements, valued at $972,000, for one AFRL NTEET project.

Other Matters of Interest
The Air Force did not properly manage and execute $1.53 million in Recovery Act funds
for the Aft Body Drag Reduction project because the Air Force withdrew Recovery Act
funds from an Aft Body Drag Reduction contract action, and the contractor refused to
implement Recovery Act reporting requirements. The mismanagement and execution of
the Recovery Act funds caused at least a 10-month project delay of Aft Body Drag
Reduction project work. See Appendix D for further discussion of the Aft Body Drag
Reduction project.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal control (MICP) Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness at the AFRL as defined by DoD Instruction 5010.40. Specifically,
contracting officers did not convey 1) presolicitation notices, 2) clarity in presolicitation
notices, and 3) use of previously competed contracts in Government Web site postings.
We will provide a copy of the report to the senior official responsible for internal controls
at the Air Force Research Laboratory Command.




                                            5

Finding. Air Force Near Term Energy-
Efficient Technologies Program
Implementation Was Not Transparent
AFRL personnel properly justified and adequately planned and funded 9 of 10 Air Force
NTEET projects.* In addition, AFRL personnel used modifications and task orders to
previously awarded competitive cost-reimbursement contracts and cooperative
agreements to award the 10 Air Force NTEET projects. As of March 31, 2010,
contracting officials for the 10 Recovery Act NTEET projects awarded 24 contract
actions, valued at $34.8 million, and 2 cooperative agreements, valued at $972,000.
However, AFRL could have improved Air Force NTEET project contracting and public
notification processes. Specifically, AFRL personnel should have:
          posted presolicitation notices on FBO prior to modifying 5 previously competed
           contracts for 2 NTEET projects,
          provided a more detailed description in the presolicitation notices for 1 NTEET
           project, and
          informed the public of their intent to use existing cost-reimbursement contracts
           previously competed to perform all 10 AFRL Recovery Act NTEET projects.

The AFRL lack of transparency occurred because of contracting officers’ inconsistent
contract implementation and oversight and the Air Force’s lack of specific DoD
Recovery Act implementing procedures. As a result, the Air Force did not achieve the
Recovery Act objective of transparency in implementing AFRL NTEET actions.

AFRL NTEET Program Properly Planned Projects
The DoD Energy Security Task Force, with members of the Military Departments,
Defense agencies, and the Office of the Secretary of Defense and chaired by the Director,
Defense Research and Engineering, reviewed the projects. The DoD Energy Security
Task Force planned and selected the Air Force NTEET projects based on their ability to
satisfy DoD capability gaps, present opportunities for military applications, or spur
initiatives within industry and DoD Components.

We reviewed 10 Air Force NTEET projects, valued at $38.9 million, performed at AFRL
headquarters at Wright Patterson Air Force Base, Ohio, as shown in Table 2.




*
    See Appendix D for details on the management and execution of the Aft Body Drag Reduction project.


                                                   6

Table 2. Recovery Act Projects Funded by Air Force RDT&E Appropriation
                                     Projects                                   AFRL
                                                                             Headquarters
         1. Highly Efficient Embedded Turbine Engine (HEETE project)           $4,860,000
         2. Adaptive Versatile Engine Technology (ADVENT project)               5,832,000
         3. Efficient Small Scale and Power (ESSP project)                      4,860,000
         4. Materials for Green Propulsion                                      5,832,000
         5. Aft Body Drag Reduction                                              6,804,000
         6. Solar Cell Transparent Conductor                                      972,000
         7. Greenhouse Gas Lifecycle Analysis                                  1,944,000
         8. Highly Efficient Portable Fuel Cells                               1,944,000
         9. Hybrid UAV Renewable Propulsion and Power System                    4,860,000
         10. Toxicology Assessment of Biomass-Derived Aviation Fuel              972,000
         Subtotal                                                              38,880,000
          Small Business Innovative Research and Small Business Tech            1,432,896
         Transfer Set-Aside*
         Total                                                                $40,312,896
*We will review DoD Small Business Innovative Research and Small Business Tech Transfer Set Aside
Recovery Act NTEET projects for all the Military Departments and DoD agencies in a separate report.

See Appendix E for more details on the 10 Air Force NTEET projects.

Air Force Promptly Distributed NTEET Program Funding
Assistant Secretary of the Air Force (Financial Management and Comptroller) personnel
properly distributed Recovery Act funds to the Air Force Materiel Command. The Air
Force Materiel Command provided AFRL $38.9 million in funding for the 10 AFRL
NTEET projects. We reviewed funding and contracting and cooperative agreement
documenta-tion for the 10 projects. AFRL contracting officials promptly and fairly
distributed Recovery Act funds meeting the Recovery Act goals for the NTEET projects.
AFRL personnel began awarding contracts within 11 days after they received Recovery
Act funds.

AFRL NTEET Contracting Process
AFRL used 24 existing cost-reimbursement contracts that were previously competed for
the 10 NTEET projects. AFRL issued the 24 research and development contracts prior to
the Recovery Act of 2009 by using a Broad Agency Announcement process. AFRL also
used two existing cost-reimbursement cooperative agreements; one cooperative
agreement was previously competed and the remaining one was awarded on a sole-source
basis for one of the 10 NTEET projects. AFRL used http://www.Recovery.gov to post
both research and development cooperative agreement award summaries. See
Appendix G for a listing of the NTEET contract actions and cooperative agreements
issued at AFRL.




                                                7

AFRL Research and Development Process
AFRL project officials used a request for proposal (RFP) process for 18 contract actions
valued at approximately $19.7 million to support 7 NTEET projects.† AFRL did not
issue an RFP for individual contract actions on three NTEET projects, valued at
approximately $15.1 million. Instead, AFRL either directly negotiated a contract action
(two projects), or used a cooperative agreement process (one project). The RFP process
communicated Government requirements to prospective contractors and to solicit
proposals. FAR Subpart 15.203 (a), “Request for Proposals,” and Paragraph 35.016,
“Broad Agency Announcement,” prescribe provisions for competitive selection of
research and development proposals submitted so that proposals selected for awards are
considered to be the result of full and open competition and fully compliant with Public
Law 98-369, “The Competition in Contracting Act of 1984.”

AFRL NTEET Cooperative Agreements
As of March 31, 2010, AFRL awarded two cooperative agreements valued at $972,000
for one AFRL NTEET project with RDT&E Recovery Act funds. AFRL project officials
used http://www.Recovery.gov as a Governmental source and a means to make
transparent cooperative agreements to the public.
AFRL contracting officials awarded two modifications to existing cooperative agree-
ments on June 30 and July 8, 2009, for $486,000 each for the Toxicology Assessment of
Biomass Aviation Fuel project. Transparency was achieved because AFRL contract
officials posted presolicitation notices on FBO for both modifications. AFRL also posted
award summaries on http://www.Recovery.gov, as required by OMB Memorandum
M-09-15, Section 5.1 (3). Both cooperative agreements clearly presented the amount
funded by the Recovery Act and included required Recovery Act provisions. AFRL
specifically stated the word “Recovery” in the title and clearly stated the intent for the
research and development under the project. However, AFRL did not disclose its intent to
use previously awarded cost-reimbursement cooperative agreements.
Cooperative agreements are governed by DoD 3210.6-R, “Department of Defense Grant
and Agreement Regulations,” April 13, 1998. This regulation states that it is DoD policy
to maximize use of competition in the award of grants and cooperative agreements;
however, it is not a requirement. Grant officers must use merit-based, competitive
procedures to the maximum extent practicable. One of the two AFRL cooperative
agreements was competed, and the other was not. According to AFRL contracting
officials, one cooperative agreement was not competed because the institution that was
awarded the agreement was recognized as a leader in knowledge with a renowned stature
in the fuels research community; therefore, AFRL contract officials recommended that
this procurement action be awarded on a sole-source basis. The sole-source
memorandum states that to regenerate this knowledge in another source would not be
practical. It also stated that the developing combustion technologies and fuels needed to
support DoD and Air Force mission requirements would be delayed by years. The AFRL


†
 Six other AFRL NTEET contract actions were not based on an RFP process. These included three
contract actions for the Aft Body drag reduction project discussed in Appendix E, two Adaptive Versatile
Engine Technology contract actions, and one Hybrid Unmanned Aerial Vehicle Renewable Propulsion and
Power System contract action discussed in Appendix E.


                                                  8

decision not to compete this procurement action was adequately justified through a sole-
source memorandum.

Presolicitation Notices for AFRL NTEET Contract
Modifications Were Not Published
Of the 24 AFRL contract actions, 5 did not have presolicitation notices posted on the
FBO Web site to facilitate public transparency before modification award. The other
19 had presolicitation notices posted on the FBO Web site and met the transparency
requirements for posting presolicitation notices on the FBO Web site. In previous
response to our finding AFRL noted that the AFRL contracting workforce was instructed
on May 1, 2009, by the Chief, Acquisition Review and Policy Division to begin issuing
presolicitation notices on modifications, pending resolution of the DoD direction. AFRL
also noted in previous responses that on May 18, 2009, AFRL implemented the DoD
guidance. The five AFRL contract actions without presolicitation notices occurred before
the March 19, 2010, DPAP guidance removing the requirement to provide FBO
presolicitation notices for modifications to existing contracts and orders.

Descriptions in Presolicitation Notices Were Unclear
For one AFRL NTEET project totaling approximately $4.77 million, officials could have
provided additional clarity in the presolicitation notices by providing additional detail on
the description of the NTEET Efficient Small Scale and Power (ESSP) project task orders
and modifications. While four presolicitations issued under the ESSP project were
posted on the FBO Web site, they did not contain sufficient detail to provide the general
public with a clear understanding of the purpose of the contract modifications awarded in
support of the project.

AFRL Use of Existing Contracts Lacked Transparency
AFRL did not inform the public of its intent to use previously competed cost-
reimbursement contracts. Federal Government organizations must meet requirements for
                                   Recovery Act contract actions by posting information
   AFRL should have facilitated
                                   on the FBO and FPDS Web sites. FAR Subpart 5.7,
    transparency by informing
                                   “Publicizing Requirements Under the American
   the public of its intent to use
                                   Recovery and Reinvestment Act of 2009,” directs
    previously competed cost-
                                   contracting officers to use the Government-wide FBO
   reimbursement contracts for
                                   Web site. It also provides rationale for awarding
   all 10 AFRL NTEET projects
                                   contracting actions that are not both fixed-price and
       totaling approximately
                                   competitive. AFRL should have facilitated
            $38.9 million.
                                   transparency by informing the public of its intent to
                                   use previously competed cost-reimbursement
contracts for all 10 AFRL NTEET projects totaling approximately $38.9 million.

Disclosure of Use of Cost-Plus-Fixed-Fee Contracts
AFRL presolicitation notices did not publically disclose the reasons for not using fixed-
priced actions for 2 of the 24 contract actions as required by OMB and DoD Recovery
Act implementing guidance. AFRL paid contractors a negotiated fee for 22 contract
actions on 9 NTEET projects that was fixed at the inception of the contract. AFRL


                                            9

officials stated that they awarded the 22 contract actions as estimated costs because of
uncertainties involved in research and development contract performance that did not
permit costs to be determined with sufficient accuracy. However, they noted that NTEET
project funding was effectively capped at the predetermined Recovery Act funding
amount.

Disclosure of Use of Cost-Sharing Contracts
AFRL awarded 2 of the 24 contract actions as cost-sharing contracts, totaling
approximately $5.2 million, to complete funding for the previously competed cost-
sharing contracts between the contractor and the Government. AFRL contracting
officials obligated the $5.2 million to cover the Government cost share for the Adaptive
Versatile Engine Technology program. AFRL did not post a presolicitation on the FBO
Web site to disclose reasons for not using fixed-price contracts. FAR 16.303, “Cost-
sharing contracts,” states that a cost-sharing contract is a cost-reimbursement contract in
which the contractor receives no fee and is reimbursed only for an agreed-upon portion of
its allowable costs. A cost-sharing contract may be used when the contractor agrees to
absorb a portion of the costs, with the expectation of substantial compensating benefits.

AFRL Included Required FAR Clauses in NTEET Contracts
AFRL contracting officials included required Recovery Act clauses in all 24 contract
actions awarded. The Federal Acquisition Circular 2005-32, “American Recovery and
Reinvestment Act of 2009,” states contracting officials shall modify, on a bilateral basis,
existing contracts to include FAR 52.203-15, “Whistleblower Protections under
American Recovery and Reinvestment Act of 2009”; FAR 52.204-11, “American
Recovery and Reinvestment Act-Reporting Requirements”; and FAR 52.215-2, “Audit
and Records-Negotiation,” if Recovery Act funds will be used. AFRL contracting
officials complied with OMB and FAR requirements including the applicable FAR
clauses in the 24 contracts funded under the Recovery Act.

Tracking and Reporting
We did not review tracking and contractor reporting of the subject contracts at the time of
our AFRL on-site review as OMB recipient reporting requirements of the Recovery Act
actions were not in effect. We will review recipient reporting of selected NTEET project
outcomes in a future report.

Summary
Although AFRL officials properly justified and adequately planned and funded 9 of
10 Air Force NTEET projects, AFRL used 24 existing cost-reimbursement contracts
awarded before the Recovery Act was passed. We found that AFRL should have
facilitated transparency by publicly disclosing presolicitation notices for five contract
modifications for two NTEET projects. AFRL also should have provided additional
project detail in four presolicitation notices. In addition, AFRL should have met FAR
and OMB transparency requirements by informing and providing rationale to the general
public of its intent to use modifications, valued at $35.8 million, to the 24 existing cost-
reimbursement contracts and 2 cooperative agreements for the 10 Air Force Recovery
Act NTEET projects.


                                            10

Management Comments on the Report and Our
Response
Responding for the Commander, AFRL, the Executive Director, AFRL, provided
comments on our internal controls discussion and three finding areas. For the full text of
AFRL comments, see the Management Comments section of the report. See Appendix F
for a summary of the management comments and our response.
Recommendations, Management Comments, and Our
Response
Deleted, Revised, and Renumbered Recommendations. As a result
of management comments, we deleted draft report Recommendation 1.a and revised and
renumbered draft report Recommendation 1.b as Recommendation 1. We agreed with the
Executive Director’s comments on the draft that stated the current FAR and OMB
Recovery Act guidance does not support recommending that transparency requirements
for modifications be made in presolicitations to existing contracts. In our subsequent
discussion with DPAP officials regarding AFRLs comment on whether DoD should
initiate a FAR case or work with OMB, DPAP officials stated that the April 21, 2009,
DoD guidance requiring transparency of contract modifications was based on initial
OMB guidance from February and April 2009. DPAP officials noted that the updated
DoD guidance, issued March 19, 2010, that removed the presolicitation notice
requirement for modifications was supported by a FAR interim rule and resulted from
multiple DPAP meetings with OMB and the FAR Council. On July 16, 2010, the final
FAR requirement exempted presolicitation notices for modifications to existing contracts
and was incorporated into FAR section 5.704. However, FAR section 5.705 continues to
require post-award disclosure and publicizing of modifications to existing contracts.
Based on this updated guidance, we concluded that it would not serve any useful propose
to request further revision to the existing FAR or DoD Recovery Act contracting
implementation guidance. Therefore, we deleted draft report Recommendation 1.a.

1. To improve Recovery Act contract compliance we recommend that the
Commander, Air Force Research Laboratory, publicly disclose details of use of
existing cost-reimbursement contracts previously competed to perform Air Force
Research Laboratory Recovery Act Near Term Energy-Efficient Technologies
projects.

Air Force Comments. Responding for the Commander, AFRL, the Executive
Director, AFRL, agreed with the intent of the recommendation to provide maximum
transparency through the disclosure of the contract type and competition to be used for
Recovery Act awards.

Our Response
The Executive Director comments are responsive to the intent of the recommendation.
No further management comments are required.




                                           11

Appendix A. Scope and Methodology
This is one in a series of reports on DoD implementation of the Recovery Act NTEET
program. We conducted this audit from September 2009 through November 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
Our overall audit objective was to evaluate DoD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
and execution of AFRL non-small-business research and development projects in the
DoD NTEET Program Plan, May 15, 2009, to determine whether they complied with
Recovery Act requirements, OMB guidance, the FAR, and DoD implementing guidance.
We reviewed NTEET program-related solicitation and contract award notices posted on
the FBO Web site through March 31, 2010. Specifically, we determined whether:
    	 the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
    	 funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
    	 contracts contained required Recovery Act FAR clauses (Initial Execution); and
    	 use of funds were transparent to the public on FBO Government Web site
       (Project Execution).
We selected all 10 NTEET Air Force projects that were managed at Wright Patterson
Air Force Base. We met with AFRL program and contracting officials to learn about the
projects and their status in the contract award process. This allowed us to review how
contracts were being managed to comply with the transparency and accountability
requirements in the Recovery Act as well as implementing OMB, FAR, and DoD
guidance. For the Aft Body Drag Reduction project, we communicated with contracting
officials at WRAFB. AFRL transferred $1.53 million in Recovery Act funds to
contracting officials at WRAFB to implement portions of the Aft Body Drag Reduction
NTEET project. For all selected projects, we reviewed contracting actions such as task
orders, modifications, and cooperative agreements by obtaining key documentation from
contract files including transparency documentation such as presolicitation notices. We
researched the FBO Government Web site to identify Air Force NTEET presolicitation
and award announcements posted there. Additionally, we applied a Recovery Act
Contract Checklist developed by the Recovery Accountability and Transparency Board.
We met with Office of the Undersecretary of Defense for Acquisition, Tech-nology, and
Logistics officials to learn how candidate NTEET projects were selected for Recovery
Act funding.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being


                                           12

expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We used computer processed data to perform this audit. Specifically, we used the notices
on the FBO Web site, http://www.Recovery.gov, and contract documentation from the
contract file. We also obtained contract documentation from the Electronic Document
Access system. We tested the accuracy of the data by comparing the project and
contracting data reported in the contract file for consistency. Our audit was focused on
the reporting of contract actions on specific Air Force projects. We determined that data
obtained through the FBO Web site and the Electronic Document Access were
sufficiently reliable for meeting the audit objectives when compared with contract
records.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.Recovery.gov/accountability.




                                           13

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):
   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Investment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009




                                          14

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
       Job Estimates,” December 18, 20092

    	 OMB Memorandum M-10-14 “Updated Guidance on the RRA,” March 22, 20102

    	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
       and Reinvestment Act,” September 24, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Documents provide Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.



                                                    15

Appendix C. DoD Near Term Energy-Efficient
Technologies Program Funding and
Functional Areas
The Recovery Act appropriated $300 million in DoD RDT&E funds in four appro-
priation accounts of $75 million each for Army, Navy, Air Force and Defense-wide
RDT&E Recovery Act projects. The DoD NTEET program divided the funds to support
project categories. The table below provides the RDT&E funding and category of the
planned work.
                Table. Program Categories of Energy-Related RDT&E Projects
                                       (Values in thousands)
          Category              Army           Navy         Air Force    Defense-     DOD Total
                                                                          Wide
Fuel-Mobility                    $40,000        $52,900        $28,000     $16,000      $136,900
Facility Energy                   10,000          3,500                                   13,500
Operational Efficiencies and       None              None        1,000        9,000       10,000
Commercial Practices
Supply and Distribution           15,000         16,100         37,000      47,000       115,100
Tactical Power and Generators     10,000          2,500          9,000        3,000       24,500
Totals                           $75,000        $75,000        $75,000     $75,000      $300,000


The energy-related projects have the potential to identify technologies that can increase
our fuel efficiency and thereby reduce our dependence on foreign energy.

Fuel Optimization for Mobility Platforms
These RDT&E efforts include testing various materials, like ceramics, in engine and
equipment design to lower thermal loads and decrease the need for cooling of component
parts that require additional energy to perform the cooling tasks. Efforts also include
conducting demonstrations on the fuel efficiency of low observable subsonic propulsion
systems for unmanned aerial vehicles.

Facility Energy Initiatives
These projects include developing or reviewing off-the-shelf enterprise energy auditing
programs and software that can couple energy security with energy efficiency, reducing
power consumption in tactical heating and air conditioning systems, and developing
whole-building energy modeling and monitoring systems and renewable energy building
integration.

Operational Efficiencies
These projects include developing or reviewing off-the-shelf enterprise energy auditing
and water management programs and software that can couple energy security with
energy efficiency, whole-building energy modeling, monitoring systems, and renewable
energy building integration.



                                               16

Domestic Energy Supply and Distribution
These include waste-to-energy and waste-to-fuel technology research and demonstra-
tions, landfill gas use, biomass and algae fuel oil production, multi-junction solar
photovoltaic for cells and sensors, wave and thermal energy from oceans, wind power,
and analyzing radar cross sections.

Tactical Power Systems and Generators
These projects include developing and demonstrating methanol-based portable fuel cells
with improved energy densities, long-duration multi-junction photovoltaics for
Unmanned Aerial Vehicles (UAV), fuel cells, converting waste heat to cooling using
absorption environmental control systems, and scalable micro-grid electrical distribution
systems for fixed and tactical installation use.




                                           17

Appendix D. Execution of the Near Term
Energy-Efficient Technologies Aft Body Drag
Reduction Project Was Delayed
The AFRL transferred approximately $1.53 million in Recovery Act funds to contracting
officials at Warner Robins Air Force Base (WRAFB) to implement portions of the Aft
Body Drag Reduction NTEET project. On September 2, 2009, WRAFB contracting
officials applied the funds to an existing non-Recovery Act contract without including
required Recovery Act reporting and other clauses. As of March 31, 2010, the WRAFB
contractor, Support Systems Associates, Inc., had spent $302,455 of the Recovery Act
funds. WRAFB contracting officials later requested AFRL to recall the Recovery Act
funds. According to AFRL officials, this occurred because the WRAFB Aft Body Drag
Reduction contractor did not want to implement Recovery Act reporting requirements.
As a result, the Recovery Act funds for the Aft Body Drag Reduction NTEET project
were not properly managed. As a consequence, the mismanagement and execution of the
Recovery Act funds caused at least a 10-month project delay of Aft Body Drag Reduction
work.

AFRL Transfer and Obligation of Aft Body Drag
Reduction Recovery Act Funds to WRAFB
The $6.8 million Aft Body Drag Reduction project investigates energy efficiency
concepts for future mobility aircraft. Project roadmaps will demonstrate aerodynamic
efficiency-related technologies. AFRL awarded three task orders, totaling approximately
$5 million in Recovery Act funds, to previously competed and awarded cost-
reimbursement contracts for this project.
On July 30, 2009, AFRL officials transferred an additional $1.53 million of Aft Body
Drag Reduction NTEET Recovery Act funds to contracting officials at WRAFB. On
September 2, 2009, WRAFB contracting officials modified an existing delivery order,
F09603-02-D-0065-0177, modification 02, previously awarded to Support Systems
Associates, Inc., to obligate the $1.53 million in Recovery Act funding. The modification
extended the contract period of performance from September 2, 2009, to September 1,
2010. The required Recovery Act contract clauses were not included in the modification
and a required Recovery Act presolicitation notice was not posted on the FBO Web site.

Unimplemented Project Recovery Act Reporting
During the period of September 2, 2009, through November 18, 2009, the contractor
expended $302,455 of the $1.53 million in Recovery Act funds from delivery order
F09603-02-D-0065-0177, modification 02, without implementing Recovery Act
reporting requirements. According to WRAFB contracting officials, the WRAFB
contractor did not know the funds awarded on delivery order F09603-02-D-00065-0177,
modification 02, were Recovery Act funds because WRAFB did not include the required
FAR clauses in the modification. Once the contractor was made aware that modifica-
tion 02 was awarded with Recovery Act funding, the contractor stopped work on the
performance for the Aft Body Drag Reduction project. The contractor did not want to


                                          18

implement the reporting requirements. WRAFB should have properly managed and
executed Recovery Act funds by posting required presolicitation notices on the FBO Web
site including required FAR clauses in delivery order F09603-02-D-0065-0177,
modification 02. This would have helped to ensure that Recovery Act funds were
accounted for in a timely manner and met OMB guidance.

Application of Non-Recovery Act Funds to the Aft Body Drag
Reduction Project
On January 11, 2010, AFRL officials at WPAFB sent non-Recovery Act funds totaling
$1.53 million to WRAFB so that the Aft Body Drag Reduction project contractor could
continue performance on the project without having to implement the Recovery Act
required reporting requirements. According to AFRL contracting officials, the
$1.53 million non-Recovery Act replacement funds were appropriated for FY 2009 and
were based on FY 2009 funds that were used between January 11 and February 28, 2010.
On February 1, 2010, WRAFB officials awarded non-Recovery Act delivery order
F09603-02-D-0065-0177, modification 04, to Support Systems Associates, Inc.,
replacing modification 02. According to AFRL contracting officials, on March 18, 2010,
the Defense Finance Accounting Service returned the $1.53 million in NTEET Recovery
Act funds to AFRL for the Aft Body Drag Reduction project.

Expended Recovery Act Funds Caused Delays of Aft
Body Drag Reduction Project Work
The funds awarded to the Aft Body Drag Reduction NTEET project were not properly
managed. As a consequence, the “attempted expenditure of Recovery Act funds” caused
mismanagement resulting in at least a 10-month delay of the Aft Body Drag Reduction
project work.

Delays in Aft Body Drag Reduction Project Work
The placement and recall of AFRL Recovery Act funds to WRAFB for the Aft Body
Drag Reduction resulted in a 6-month funding delay in that Recovery Act funds were not
available for AFRL contracting officials to obligate for the September 2009 through
March 2010 period of performance at WRAFB. AFRL contracting officials awarded
$1.72 million of Recovery Act funds with replacement modification FA8650-08-D-3858-
0021 on July 15, 2010, obligating the returned Recovery Act funds to the Aft Body Drag
Reduction Project. The resulting project delay was at least 10 months based on changing
modification F09603-02-D-0065-0177-02 award from September 2, 2009, to July 2010.
The delay resulted in improper Recovery Act project funding and execution as well as
inaccurate reporting of WRAFB expenditures for the Aft Body project.

We agree with WRAFB officials’ decision to award non-Recovery Act funds on delivery
order F09603-02-D-0065-0177, modification 04, because the contractor did not want to
implement the reporting requirement for the use of Recovery Act funds to be fully
transparent. However, WRAFB officials should have included the required FAR clauses
in F09603-02-D-0065-0177, modification 02, and should have properly managed the
Recovery Act funds.



                                         19

Appendix E. Description and Status of AFRL
Near Term Energy-Efficient Technologies
Projects
The Recovery Act provided the Air Force $75 million of RDT&E funding for
improvements in energy generation and efficiency, transmission, and storage for use on
military installations and within operations forces. The projects include research and
development of technologies from development of combustion system, state of the art
turbine engines, portable fuel cells, and fuel cell based power system.

1. Highly Efficient Embedded Turbine Engine
The Highly Efficient Embedded Turbine Engine (HEETE) project is a technology
development program that pursues high temperature, high pressure ratio compressor
technologies and related features to develop a combustion system in a jet engine or gas
turbine. The AFRL goal is to define the next generation engine architecture for subsonic
missions. AFRL received $4.86 million in Recovery Act funds for this project. As of
March 31, 2010, AFRL awarded four task orders valued at $4.85 million to conduct
research and provide data for the Highly Efficient Embedded Turbine Engine. Although
the presolicitation notices were posted on the FBO Web site and included the Recovery
Act FAR requirements, AFRL should have met transparency requirements by informing
the public of its intent to use four previously competed contracts for this project. Accord-
ing to AFRL officials, remaining Recovery Act funds totaling $3,819 resulting from over
estimation of work on some orders will be returned by AFRL to the Air Force for
reprogramming.

2. Adaptive Versatile Engine Technology
The Adaptive Versatile Engine Technology (ADVENT) effort provides scientific,
engineering, and technical research to advance the state of the art in turbine engines by
conducting analysis on key technologies necessary for the execution of the ADVENT
project. The contractor will develop and analyze advanced propulsion concepts, conduct
experimental research, develop advanced proponents, develop test plans and test vehicles,
and analyze propulsion systems and subsystems. AFRL received $5.83 million in
Recovery Act funds for this project. As of March 31, 2010, AFRL awarded four
modifications with a total value of $5,826,013 to finalize funding for four previously
competed cost sharing contracts for the Government share of the ADVENT Program
Phase 1 and to conduct research to provide data for the ADVENT. Two of the 4
modifications were based issued RFPs. The other two modifications were issued bi-
laterally without use of an RFP process. AFRL should have posted presolicitation notices
for this project on the FBO Web site and informed the public of its intent to use
previously competed contracts for the four modifications awarded for this project.
According to AFRL officials, remaining Recovery Act funds totaling $5,987 will be
returned by AFRL to the Air Force for reprogramming.




                                            20

3. Efficient Small Scale and Power
The Efficient Small Scale and Power (ESSP) Core Engine conducts demonstrations of
small-scale propulsion systems to reduce fuel consumption for UAVs and power
generators. AFRL received $4.86 million in Recovery Act funds for this project. As of
March 31, 2010, AFRL had awarded two task orders and two modifications with a total
value of $4,767,536 to design studies for mission core engine analysis and design
activities for innovative technologies for the Versatile Affordable Advanced Turbine
Engines program. AFRL officials transferred Recovery Act funds of $89,900 to
Oakridge National Laboratories to conduct ceramic material testing turbine. The four
presolicitations for the two modifications and two task orders met OMB requirements for
posting on the FBO Web site, but there was not enough detail to provide the general
public with a clear understanding for the purpose of the task order and modifications
awarded in support of the project. Also, AFRL should have met transparency
requirements by informing the public of its intent to use previously competed contracts
for this project. According to AFRL officials, remaining Recovery Act funds totaling
$2,564 will be returned by AFRL to the Air Force for reprogramming.

4. Materials for Green Propulsion
The Materials for Green Propulsion project defines risk reduction projects for advanced
materials and manufacturing technologies that will deliver improvement in fuel burn and
a reduction in greenhouse gas missions for both fielded and next generation commercial
and military turbine engines. AFRL received $5.83 million in Recovery Act funds for
this project and awarded four task orders with a total value of $5,831,826 to identify
propulsion upgrade options and to perform current engine analysis for this project.
AFRL posted presolicitation notices on the FBO Web site, but the notices did not
mention the intent to use cost-reimbursement contracts that were previously competed to
perform this project. According to AFRL officials, remaining Recovery Act funds of
$174.00 will be returned by AFRL to the Air Force for reprogramming.

5. AFT Body Drag Reduction
The Aft Body Drag Reduction task force investigates future mobility aircraft concepts
that provide dramatic increases in energy efficiency. Roadmaps will be used to
demonstrate aerodynamic efficiency-related technologies created for use in a follow-on
effort. AFRL received approximately $6.8 million in Recovery Act funds for this project.
AFRL awarded three task orders with a total value of $4,979,663 to conduct research for
revolutionary configurations for energy efficiency. In addition, AFRL transferred
$1.53 million in Recovery Act funds to WRAFB on July 30, 2009. AFRL later recalled
the Recovery Act funds because the contractor did not want to implement Recovery Act
reporting requirements (see Appendix D). AFRL posted presolicitation notices on the
FBO Web site for its three task orders, but the notices did not mention the intent to use
cost-reimbursement contracts that were previously competed to perform this project.

6. Solar Cell Transparent Conductor
The Solar Cell Transparent Conductor objective is to develop and test alternatives to
expensive indium tin oxide and transparent conductive oxide coatings used in many solar
cell designs with a less expensive alternative. AFRL received $972,000 in Recovery Act
funds for this project. As of March 31, 2010, AFRL awarded one modification and one

                                          21

task order with a total value of $971,760. The modification was awarded to a Small
Business Innovative Research and Small Business Tech Transfer Set Aside project which
will be reviewed in a separate report. The task order authorized the contractor to explore
laser ablation growth reactor changes and upgrades to enable application of chemical
vapor disposition in the growth reactor. This project met some transparency
requirements by posting presolicitation notices on the FBO Web site and including
required FAR clauses in the contract. AFRL should have informed the public of its intent
to use previously competed contracts for this project. According to AFRL officials, the
remaining Recovery Act funds of $240.00 will be returned by AFRL to the Air Force for
reprogramming.

7. Greenhouse Gas Life-Cycle Analysis
This project supports the evaluation of a life-cycle greenhouse gas “footprint” of
alternative fuels, relative to a current petroleum baseline. The project was initiated by the
Interagency Working Group on Greenhouse Gas Life-Cycle Analysis. AFRL received
$1.94 million in Recovery Act funds for the project. AFRL awarded one task order and
one modification with a total value of $1.31 million. In addition, AFRL transferred
$300,000 to the Federal Aviation Administration to support fuels research performed in
the Propulsion Directorate of AFRL. AFRL transferred remaining funds of $329,998 to
the Technology Support Flight unit at Wright Patterson Air Force Base to support the
Assessment of Alternative Energy Sources for DoD applications. AFRL posted
presolicitation notices on the FBO Web site for the task order and modification, but the
notices did not mention the intent to use cost-reimbursement contracts that were
previously competed to perform this project.

8. Highly Efficient Portable Fuel Cells
The purpose of this project is to develop and demonstrate methanol-based portable fuel
cells with improved energy densities. The project would result in the demonstration of
20 units of a portable power fuel cell. The total Recovery Act funding for this project is
$1,944,000. AFRL awarded a task order on June 29, 2009, with a value of $1,943,965, to
conduct research for the “Development and Demonstration of Improved Materials for
Highly Efficiency Portable Fuel Cells.” AFRL posted a presolicitation notice on the FBO
Web site for the task order but did not mention the intent to use cost-reimbursement con-
tracts that were previously competed to perform this project. According to AFRL
officials, the remaining Recovery Act funds of $35.00 will be returned by AFRL to the
Air Force for reprogramming.

9. Hybrid Unmanned Aerial Vehicle Renewable Propulsion and
Power System
This project intends to develop a renewable long-endurance (months on station) UAV
using four-junction photovoltaic power to renew a fuel cell-based power system and high
efficient electric propulsion. The project received $4,860,000 of Recovery Act funds.
AFRL modified a previously competed cost-plus-fixed-fee contract on July 17, 2009,
with a value total of $4,859,929 to incorporate added work into this project and to modify
the delivery schedule. AFRL did not post a presolicitation notice on the FBO Web site for
this project. AFRL should have met transparency requirements by informing the public
of its intent to use previously competed contracts for this project. According to AFRL


                                            22

officials, the remaining Recovery Act funds of $71.00 will be returned by AFRL to the
Air Force for reprogramming.

10. Toxicology Assessment of Biomass-Derived Aviation Fuel
The objective of this effort is to investigate and evaluate advanced fuels and fuel
technologies. Total AFRL Recovery Act funding for this project is $972,000. AFRL
awarded two modifications to existing cooperative agreements for $486,000 each. AFRL
posted presolicitation notices on the FBO Web site for both cooperative agreements but
did not mention the intent to use previously awarded, cost-reimbursement cooperative
agreements.




                                          23

Appendix F. Management Comments on the
Report and Our Response
Responding for the Commander, AFRL, the Executive Director, AFRL, provided
comments on our internal controls discussion and three finding areas. For the full text of
AFRL comments, see the Management Comments section of the report.

AFRL Comments on Review of Internal Controls
The Executive Director disagreed that there were any internal control weaknesses with
presolicitation notices, clarity in the presolicitation notices, and use of previously
competed contracts in AFRL Government Web site postings. The Executive Director
stated that AFRL personnel identified a DoD policy discrepancy that was not resolved
until the DoD policy was rescinded. The Executive Director also stated that AFRL
implemented the use of presolicitation notices on modifications to existing contracts until
the DoD policy was rescinded. The Executive Director further stated that the AFRL
contracting officers appropriately complied with policy and regulation regarding clarity
in presolicitation notices and use of previously competed contracts.

Our Response
The AFRL internal control weakness was caused by the absence of an AFRL decision to
quickly implement the FAR subpart 5.7, “Publicizing Requirements Under the American
Recovery and Reinvestment Act of 2009,” OMB Memoranda M-09-10 and M-09-15, and
the April 21, 2009, DoD guidance to post presolicitation notices on the FBO Web site for
modifications and task orders. Therefore, the notices were not readily available and did
not provide transparency during the April 21, 2009, DoD guidance. Without these
controls in place, management is not able to state that AFRL contracting officers
appropriately complied with policy and regulation.

AFRL Comments on Posted Presolicitation Notices
The Executive Director agreed that five AFRL presolicitation notices were not posted,
stating that AFRL did not post the notices because of an AFRL-perceived discrepancy
between OMB and DoD Recovery Act transparency requirements. The Executive
Director noted that no presolicitation notice requirement existed before the DoD
Recovery Act implementation guidance, “Updated Instructions on Recovery Act
Presolicitation and Award notices for actions Funded by the American Recovery
Reinvestment Act of 2009.” The Executive Director stated that AFRL personnel
believed the 2009 DoD guidance resulted in an additional Recovery Act-related
contracting requirement that was not required of other Federal agencies nor included in
the OMB or FAR policy. The Executive Director also stated that on May 18, 2009,
AFRL personnel directed that the DoD guidance be implemented after AFRL personnel
unsuccessfully attempted to resolve the perceived discrepancy. The Executive Director
noted that DoD subsequently rescinded the requirement for presolicitations for contract
modifications in its March 19, 2010, guidance.




                                           24

Our Response
Our finding is based primarily on OMB Memorandum M-09-15, as well as the associated
DoD implementing guidance of April 21, 2009. The modifications were awarded May 5,
2009 (two awards), June 17, 2009; July 6, 2009; and July 17, 2009, after OMB and DoD
issued their implementing guidance. We concluded that AFRL did not comply with
OMB and DoD guidance regarding the presolicitations for the five awarded
modifications.
We agree that the March 19, 2010, DoD-revised guidance subsequently rescinded the
requirement for presolicitations for contract modifications. We have revised the final
report “Presolicitation Notices” section to note the March 19, 2010, contract
modifications requirement and to further explain that FAR 5.704 prescribed posting
requirements. We also added further background regarding the OMB Memorandum
M-09-15, section 6.2, requirements for solicitation of offers when Recovery Act funds
are used for modifications as well as for task and delivery order contracts.

AFRL Comments on Clarity in Presolicitation Notices
The Executive Director stated that four presolicitation notices for the ESSP project
contained sufficient information to adequately describe the four expected contract action
awards. The Executive Director also stated that the amount of information needed to
adequately describe a project is subjective; and therefore, he believed that AFRL
contracting officers implemented the Recovery Act guidance appropriately.

Our Response
The description in the presolicitation for each of the four awards stated, “This effort is in
Support of the VAATE II Versatile Core-Efficient Small Scale Propulsion (ESSP) Core
Engine Demonstrator.” The OMB Memorandum M-09-10 and the April 21, 2009, DoD
implementing guidance requires the use of clear and concise language to describe the
planned procurement. The guidance also requires that the description of the goods and
services be understood by the general public. It further states that the description should
supplement the title to provide public understanding and knowledge of the Recovery Act-
funded project. As noted in the report, we concluded that AFRL officials did not provide
enough detail to give the general public a clear understanding of the purpose of the
awards. Although we agree that the amount of information needed to describe the
purpose of the award may be subjective, we disagree that contracting officers
implemented the guidance appropriately.

AFRL Comments on Transparency of AFRL Use of Existing
Contracts
The Executive Director disagreed that AFRL needed to inform the public of its intent to
use existing cost-reimbursement contracts that were previously competed The Executive
Director stated that public notices do not require a discussion on contract type other than
fixed-price contracts or a discussion of the competition of the contract being used. The
Executive Director noted there was no requirement in the OMB guidance to put the
contract type or the competitive nature of the contract being used in a presolicitation
notice. The Executive Director also noted that contracting officers stated in the
presolicitation notice that an existing contract was being used.


                                            25

The Executive Director further noted that OMB Memorandum M-09-10 discusses award
announcement, rather than presolicitation notices. The Executive Director also noted that
OMB Memorandum M-09-10 describes the requirement for specific information to be
included only if the effort is not competitively awarded or if it is not a fixed-price
contract. The Executive Director stated that there is no OMB requirement to report the
use of modifications to existing contracts. The Executive Director also stated that AFRL
award notices included a detailed description of the research and development, as well as
statements that conveyed the intent to use other-than-fixed-price contracts to award the
work.

Our Response
As noted in the report, FAR subpart 5.7 contains contracting requirements in effect at the
time the AFRL contract modifications were made. FAR subpart 5.7 directs contracting
officers to use the Government-wide FBO Web site and provides rationale for the
awarding of any contracting actions that were not fixed-price and competitive. OMB
Memorandum M-09-10 imposes unique transparency requirements that change the
presolicitation and award notice process beyond standard practice. For example, the
presolicitation notice for the HEETE project did not state that the contract actions were
issued under an “existing” IDIQ contract and that the action was not fixed price and was
not competed. FAR Subpart 1.1, “Purpose, Authority and Issuance,” directs that the FAR
is the primary document for uniform policy and procedures for acquisition by all
Executive agencies. We disagree that presolicitation notices stated that existing AFRL
contracts were being used. For example, the presolicitation notices for the ESSP project
did not state that an existing cost-reimbursement contract would be used. It stated, “This
announcement is to notify that additional work will be incorporated into task order 000
which will obligate Recovery Act Funds.” Based on our review, the presolicitation
notices lacked transparency.

OMB Memorandum M-09-10 requires that specific information be included only if the
effort is not competitively awarded or if it is not fixed price. However, it also requires
the inclusion of section 6.2, (1), “Unique Requirements for Posting Presolicitation
Notices.” The section specifically states that the Recovery Act imposes transparency
requirements that change the presolicitation and award notice process beyond standard
practice. The section also states that presolicitation notices must be posted on the FBO
Web site in accordance with FAR Part 5.




                                            26

     Appendix G. Air Force Laboratory Contract and Cooperative Agreement Actions
                                                                                                                              Included
                                                                                                                 Posted      Appropriate
                                                                           Use of                     Posted    Adequate      Recovery     Included
                                                                         Previously   Posted Pre-    Award       Project     Act Clauses   Contract
           Projects/     Cooperative   Action    Contract                 Awarded     solicitation    Notice   Description      in the     Action in
           Contracts     Agreements    Type       Type        Competed   Contracts     on FBO        on FBO     on FBO        Contract      FPDS       Amount
        HEETE Project

        FA8650-09-D-                   Task      Cost-Plus-
        2923 0009                      Order     Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes       $1,471,302

        FA8650-09-D-                   Task      Cost-Plus-
        2922 0006                      Order     Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes         935,000

        FA8650-09-D-                   Task      Cost-Plus-
        2921 0006                      Order     Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes         974,988

        FA8650-09-D-                   Task      Cost-Plus-
        2925 0004                      Order     Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes        1,474,891
        ADVENT Project
27




        FA8650-07-C-                   Modifi-     Cost
        2802 P00023                    cation     Sharing       Yes         Yes           No          Yes          No           Yes          Yes        2,642,448

        FA8650-07-C-                   Modifi-     Cost
        2803 P00025                    cation     Sharing       Yes         Yes           No          Yes          No           Yes          Yes        2,632,998

        FA8650-08-D-                   Modifi-   Cost-Plus-
        2806 0010 05                   cation    Fixed-Fee      Yes         Yes           No          Yes          No           Yes          Yes         306,882

        F33615-03-D-                   Modifi-   Cost-Plus-
        2354 0024 02                   cation    Fixed-Fee      Yes         Yes           No          Yes          No           Yes          Yes         243,685
        ESSP Project

        FA8650-09-D-                   Task      Cost-Plus-
        2929 0003                      Order     Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes        1,834,771

        FA8650-09-D-                   Task      Cost-Plus-
        2924 0003                      Order     Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes        1,943,994

        FA8650-09-D-                   Modifi-   Cost-Plus-
        2924 0003 01                   cation    Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes         485,988

        FA8650-09-D-                   Modifi-   Cost-Plus-
        2929 0003 01                   cation    Fixed-Fee      Yes         Yes          Yes          Yes          No           Yes          Yes         502,783
     Appendix G. Air Force Laboratory Contract and Cooperative Agreement Actions (cont’d)
                                                                                                                                         Included
                                                                                                                            Posted      Appropriate
                                                                                      Use of                     Posted    Adequate      Recovery     Included
                                                                                    Previously   Posted Pre-    Award       Project     Act Clauses   Contract
                 Projects/      Cooperative     Action     Contract                  Awarded     solicitation    Notice   Description      in the     Action in
                 Contracts      Agreements      Type        Type       Competed     Contracts     on FBO        on FBO     on FBO        Contract      FPDS       Amount
             Materials for Green Propulsion

             FA8650-09-D-                       Task      Cost-Plus-
             2925 0003                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes       1,457,992

             FA8650-09-D-                       Task      Cost-Plus-
             2922 0005                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes       1,458,000

             FA8650-09-D-                       Task      Cost-Plus-
             2923 0007                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes       1,457,834

             FA8650-09-D-                       Task      Cost-Plus-
             2921 0005                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes       1,457,723
             Aft Body Drag Reduction
28




             FA8650-08-D-                       Task      Cost-Plus-
             3857 0007                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes        892,193

             FA8650-08-D-                       Task      Cost-Plus-
             3858 0005                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes       3,202,510

             FA8650-08-D-                       Task      Cost-Plus-
             3859 0005                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes        884,960
             3
              F09603-02-D-                      Modifi-   Time and
             0065 0177 02                       cation    Material        Yes          No            No           No          No            No          Yes       1,536,915
             Solar Cell Transparent Conductor

             FA8650-04-D-                       Task      Cost-Plus-
             5711 0017                          Order     Fixed-Fee       Yes          Yes          Yes          Yes          No           Yes          Yes        471,824




     3
         Contract awarded by Warner Robins Air Logistics Center officials (See Appendix D).
 Appendix G. Air Force Laboratory Contract and Cooperative Agreement Actions (cont’d)
                                                                                                                                              Included
                                                                                                                             Posted          Appropriate
                                                                                    Use of                     Posted       Adequate          Recovery      Included
                                                                                  Previously   Posted Pre-    Award          Project         Act Clauses    Contract
            Projects/        Cooperative        Action    Contract                 Awarded     solicitation    Notice      Description         on the       Action in
            Contracts        Agreements         Type       Type        Competed   Contracts     on FBO        on FBO        on FBO            Contract       FPDS          Amount
         Greenhouse Gas Life-Cycle Analysis

         FA8650-08-D-                           Task      Cost-Plus-
         2806 0019                              Order     Fixed-Fee      Yes         Yes          Yes          Yes             No                Yes          Yes            569,122

         FA8650-08-D-                           Modifi-   Cost-Plus-
         2806 0019 05                           cation    Fixed-Fee      Yes         Yes          Yes          Yes             No                Yes          Yes            744,880
         Highly Efficient Portable Fuel Cells

         FA8650-05-D-                           Task      Cost-Plus-
         5807 0070                              Order     Fixed-Fee      Yes         Yes          Yes          Yes             No                Yes          Yes          1,943,965
         Hybrid UAV Renewable Propulsion and Power System

         FA8650-08-C-                           Modifi-   Cost-Plus-
         2935 P00003                            cation    Fixed-Fee      Yes         Yes           No          Yes             No                Yes          Yes          4,859,929
                                                                                                                                       Total of Contracts                 36,387,577
29




         Toxicology Assessment of Biomass-Derived Aviation Fuel

                                                            Cost
                             F33615-03-2-                  Reim-
                                                                                    4                          5              3
                             2347 P00109        COOP      bursable       No             Yes       Yes              Yes            No             N/A          N/A            486,000

                             FA8650-05-                      Cost
                             2-6518                         Reim-
                                                                                    2                          3              3
                             P00061             COOP       bursable      Yes         Yes          Yes           Yes               No             N/A          N/A            486,000
                                                                                                                     Total of Cooperative Agreements                         972,000
                                                                                                                                            Grand Total                 $ 37,359,577


         Yes/No Totals For Contracts                                     25/0       25/0          19/6         24/1           0/25               24/1         25/0
         Yes/No Totals For Cooperative
                                                                                                               3              3
         Agreements                                                      1/1         2/0           2/0             2/0         0/2               N/A          N/A



 4
     Use of previously awarded Cooperative Agreements.
 5
     Cooperative Agreements posted award notice on http://www.Recovery.gov.
Department of the Air Force Comments






                                30
       Final Report 

        Reference






     Deleted






31
                                                                                                                Final Report 

                                                                                                                 Reference






       Reinvestment Act of 2009", April 3, 2009, reloring to Recovery Act Near Term fnergy-Effidenc
       Technologies program for modifications and for posting of presolicitatians awarded by Air Force
       Research Laboratory.


AFRl Mana gement Comments: Concur with Intent, Comm ents Provided


       The first bullet In t he finding assumes a requirement for presolicitation notices for modifications
       existed. This requirement was initiated in 000 guidance, Issued 21 Apr 2009 . The guidance             Revised page 3 

       crea ted a discrepa ncy as ARM-re lated statute required 100% sta ndardization of information
       reponed across the Fede ral Government. DoD was not authoriled to levy an additiona l
       requirement not performed by other federal departments nor included in the FAR or OMS
       policy. 000 subsequently rescinded the requirement on 19 Mar 2010, Between the time the
       DOD gU idance was issued and its rescission, AFRL/PK unsuccessfully attempted to resolve the
       discrepancy between the DOD guidance and OMS/FAR guidance with highe r headquarters. Also
       during this t ime, absent clarifying guidance, five AFR LjPK Det 1 within scope modifications w ere
       awarded without issuance of presolicitation notice . On 18 May 2009, when it became apparent
                                                                                                              Revised page 9 

       resolution was not forthcoming, AFRl/?K directed implementation of the DOD gu idance .

       AFRL interpreted the NTE ET project included In the second bullet Within the finding to re fer to
       the four awards compriSing the Efficient Small Scale Puwer (ESS? ) Project, ba s ~d on total dollar

                                Click to add JPEG file
       value (found on page 24 of the audit report). The titles of the efforts in the presolicitation
       notices contained sufficient information to adequately describe the projects. The amount of
       information needed to adequately describe a project is subjective; therefore, we believe AFRl
       cont racting officers implemented the ARRA guidance appropriately.


       AFRl implemented existing guidance appropria te ly with the eltception of the pre solicitation
       notices on modifications which were not synopsized due to a perceived policy conflict. AFRl
       subsequently began issuing the notices on the modifications until such time as the DoD
       guidance requiring notices for modifications to elCisting contracts was rescinded. Since the
       pol icy w as rescinded there is no need for further policy guidance . ?resolicitation and award
       notices were issued in accordance with existing guidance and policy.


000 IG Audit Recommendation: To improve Recovery Act contract compliance, we recommend thor the
Commander, Air Force Research Laboratory:


       b. Publicly disclose derolls of the intent to use ex{sting cost-reimbursement contracts previously     Revised and 

       competed to per/orm Air Force Laboratory Recovery Act Near Term Energy-EffiCient Technologies
                                                                                                              Renumbered as 

       projecrs.
                                                                                                              Recommendation 1 





                                                                   32
AFRl Management Comments: Concur with Intent, Comments Provided


       AFRl is in agreement with the 000 IG's Intent to provide maximum transparency through the
        disclosure of cont ract type to be used and the degree of competition to be employed for ARRA
       awards. However, current FAR/OMB statute and policy does not support these
       requirements. If this type of transparency is sought for fu ture acquisitions ut ilizing ARRA
       funding. AFRl recommends DoD either Initiate a FAR case or work through OMB channels for
       the issuance of an official memorandum to address these requirements.


       AFRl interpreted the third bullet within the finding, regarding use 01 existing contracts and
       competition status, to refer to pre solicitatio n notices which do not requ ire a discussion of
       contract type other than fil<ed price, or of the competitive nature of the contract being used .
       These notices were required to state, " This notice 15 provided for Informational purposes only",
       and cite the contract to   be used. rhere was no requirement to indicate in presolicitation notices
       the contract type, or the competitive nature of the contract being used . However, the
       presolicitation notices did state an ekisting contract was being used.

       Pages 41-43 of OMS Memo M-09-l0 (found on pagelS of the audit re port) discuss award
       announcements, rather than pre<;.olicitation notices. It de<;.cribes the requirement for special
       informa tio n to be induded only if the effort is not competitive ly awarded or if it is not fixed

                                  Click to add JPEG file
       price. There is no requ irement to report the use of modifications to existing contra cts rather
       than new awards. The AFRL award notices Included detailed descriptions of the research and
       development, as well   as statements conveying the intent to use other than      fixed price contracts
       to award the work.

        AFRl contracting officers complied with existing policy and regulation regard ing competition
       and contract type disclosure to the public.

3. Othe r AFRl Comments Regarding Draft Report :

        Review of Internal Controls: Page 5 of the report states,   We identified on internal control
       weakness at the AFRL as defined in 000 Instruction 5010.40. Specifically, eonrrucliflg officers did
       not convey 1) presoficitation notices, 2) clority in presolieitotion notfces, and 3) use of previously
       competed contracts In Government Web site postings.

       Comment: There is not an in ternal contro l weakness as described in the preced ing narrative .
       AFRl identified a DoD policy disconnect to higher headquarters which was not resolved until the
       DoD policy was rescinded. AFRl recognired that clarifying poli cy was not forthcoming and
       implemented use of presolicitation notices on modificat io ns to el<isting contracts until the DoD
       policy was rescinded. AFRl contract ing officers appropriat ely complied with po licy and
       regulation rega rding clarity in presolicitation notices and use of previously co mpeted contracts
       as previously discussed in this response .




                                                                     33
